               DEPARTMENT OF THE INTERIOR
               OFFICE OF INSPECTOR GENERAL
                  Royalty Initiatives Group


            EVALUATION REPORT




    MINERALS MANAGEMENT SERVICE
   ROYALTY-IN-KIND OIL SALES PROCESS


Report No. C-EV-MMS-0001-2008                 May 2008
                          United States Department of the Interior
                                        Office of Inspector General
                                            Washington, DC 20240



                                                                    May 30, 2008

Memorandum

To:            C. Stephen Allred
               Assistant Secretary for Land and Minerals Management

From:          Earl E. Devaney
               Inspector General

Subject:       Royalty-In-Kind Oil Sales Process (Report No. C-EV-MMS-0001-2008)

        I am pleased to provide you with the first Evaluation Report prepared by the
Office of Inspector General’s (OIG) new Royalty Initiatives Group. This evaluation was
conducted as a result of work performed by the Royalty Initiatives Group while assisting
in the OIG investigation into allegations of misconduct in the Royalty-In-Kind (RIK)
Program.

        During the investigative assist, we discovered that modifications to oil sale
contracts were made without clear criteria, and that the modifications appeared to
inappropriately benefit the oil companies. While our evaluation determined that these
practices have been largely corrected, governing criteria is still lacking throughout much
of the RIK oil sales process.

       We have made six recommendations that parallel and expand upon those
recommendations made by the Subcommittee on Royalty Management in their Report to
the Royalty Policy Committee.

       We would appreciate being apprised of the actions the MMS takes on our
recommendations so we may track the status of their implementation. The results of this
evaluation will be reported to Congress in our semiannual report, as required by the
Inspector General Act, as amended.

       Please provide a written response to this report by June 30, 2008. The response
should be sent to:
                       Mr. Robert Romanyshyn
                       Assistant Inspector General for Audits
                       U.S. Department of the Interior
                       Office of Inspector General
                       1849 C Street, NW, MS 5341
                       Washington, DC 20240

       The response should state concurrence or nonconcurrence with the findings and
recommendations, including specific reasons for any nonconcurrence. It should also
provide information on actions taken or planned, target dates, and titles of the officials
responsible for implementation.

        We thank MMS, and particularly the RIK staff, for their cooperation and
assistance. If you have any comments or questions regarding this report, please do not
hesitate to contact me at (202) 208-5512.

Attachment
                                 Table of Contents 

Why We Performed This Evaluation                                                                            1

Background of the RIK Program                                                                               1

What We Found                                                                                           3
     Business Practices Do Not Ensure Fairness or Effectiveness ...................... 4
     Enhance Legal Review and Heed Legal Advice ......................................... 7
     Staffing and Business Continuity Concerns ............................................... 9
     Alternative Sales Options ....................................................................... 10

Appendixes
     A.   Summary of Recommendations ........................................................... 12
     B.   Methodology ..................................................................................... 13
     C.   Oil Sales Process Flowchart ................................................................ 15
     D.   Areas to be Addressed by Operations Manual ...................................... 16


 
 
                                      Abbreviations 
                ETB                                   Expected Transportation Bid
                FAR                                   Federal Acquisition Regulation
                FCC                                   Federal Communications Commission
                IFO                                   Invitation for Offer
                MAB                                   Minimum Acceptable Bid
                MMS                                   Minerals Management Service
                MRM                                   Minerals Revenue Management
                OIG                                   Office of Inspector General
                RIK                                   Royalty-in-kind
                RIV                                   Royalty-in-value
                RPC                                   Royalty Policy Committee
                SOL                                   Office of the Solicitor
                SPR                                   Strategic Petroleum Reserve




                       Cover photo courtesy of U.S. Department of Energy.
                   Why We Performed This Evaluation 
In recent years, the multi-billion dollar royalty program of the Minerals Management Service
(MMS) has been under increased scrutiny by various organizations, including the U.S. Congress
and the Government Accountability Office. Areas of concern include the viability of collecting
royalties in-kind and whether the Royalty-In-Kind (RIK) Program has maintained or exceeded
the revenues that would have been received had the royalties been collected in-value.

While assisting in an Office of Inspector General (OIG) investigation initiated in 2006, the
Royalty Initiatives Group found that the RIK Program had modified oil sale contracts without
clear criteria, and that the modifications appeared to inappropriately benefit the oil companies.
We reviewed 72 contracts comprising 718 individual bid packages awarded to companies during
2001 to 2006. Of the 718 bid packages awarded, 121 were modified, but only 3 of these
modifications favored the government. While we did not do an in-depth analysis, we estimate
the value of the modified bid packages not in favor of the government to be approximately $4.4
million.

The RIK Program has considerable public interest and given the high visibility of the program
and its large dollar impacts, we evaluated controls to ensure the effectiveness and fairness of the
RIK oil sales process. We performed our work in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency (see Appendix B for
our methodology).

                      Background of the RIK Program 
 
MMS’ Minerals Revenue Management Program (MRM) is responsible for collecting, accounting
for, and distributing revenues received from minerals produced from federal and Indian lands. In
FY2007, MRM collected over $11.4 billion in mineral revenues (including bonuses, rents, and
royalties) and administered more than 67,000 leases. In exchange for the right to produce
minerals, companies pay MMS a royalty which is typically a one-sixth or one-eighth share of the
production. In its discretion, MMS may receive the royalties in cash (royalty-in-value or RIV) or
as the actual product (royalty-in-kind). Traditionally, most royalties were received in-value.
Beginning in the mid 1990’s, however, MMS implemented pilot projects to explore the
feasibility of taking royalties in-kind. According to MMS, the pilots proved successful and
subsequently, the RIK Program became fully operational in 2004.

The oil and gas industry has long been a proponent of the government taking royalties in-kind.
The advantages include less audit oversight because the in-kind method eliminates disputes
between MMS and industry concerning the valuation of the product. Under RIK, MMS only
needs to verify that operators deliver the correct volume of oil and that MMS receives proper
payment when selling the oil. MMS also claims that administrative costs are reduced and that
revenue collections are increased for the government.

Located in the MRM offices in Lakewood, Colorado, the RIK Program operates with about 50
personnel and a $19 million annual administrative cost budget. Because collecting royalties in-


                                                 1
kind requires MMS to function similar to a company by managing the actual physical flow of oil
and gas, MMS chose to design the program similar to industry. Accordingly, the RIK Program
has three main sections: 1) the Front Office markets the RIK Program to industry, analyzes
properties for the viability of taking the royalties in-kind, and sells the oil; 2) the Mid-Office is
responsible for ensuring that companies are financially capable of participating in the program;
and 3) the Back Office is responsible for ensuring that MMS receives the correct volumes and
proper payment. However, the RIK Program does not have the same business objective as
industry, which is to maximize revenues. Rather, the RIK Program operates under a revenue-
neutral mandate contained in the Energy Policy Act of 2005, which stipulates that revenues
collected as RIK only need to equal or exceed what would otherwise be collected in RIV.

The following graph illustrates the growth of mineral royalties, including oil, gas, and coal, taken
in-kind versus in-value since FY2004.




RIK Oil Sales
The Front Office is organized into separate natural gas and crude oil units. Our evaluation,
which covered the oil sales process, primarily addressed activities of the Crude Oil Front Office.

The RIK Program concentrates on production from offshore leases, where about 70 percent of oil
is taken in-kind. Several sales of royalty oil are held each year (see Appendix C for a flowchart
describing the sales process in more detail). At the discretion of RIK, a sale may be held for the
purpose of filling the nation’s Strategic Petroleum Reserve (SPR) or a sale may be “unrestricted”
in which the oil is destined for the open market. In an unrestricted sale, companies bid to
purchase the oil. In an SPR sale, companies bid to transport the oil and RIK coordinates with the
Department of Energy (who manages the SPR) to have the oil delivered at designated locations.
[Note: RIK also manages a separate program to supply small refiners with oil, however, the
Small Refiners Program was not part of our evaluation.] In FY2007, RIK sold about $1.7
billion in unrestricted oil and transferred oil valued at $306 million to the SPR. The following
graph illustrates the volumes taken in-kind since FY2004 for the SPR and unrestricted sales.
                                                  2
                                                 
During our evaluation, the Subcommittee on Royalty Management, appointed by the Secretary of
the Interior, issued a report "Report to the Royalty Policy Committee: Mineral Revenue
Collection from Federal and Indian Lands and the Outer Continental Shelf" (RPC Report) on
various programs within Minerals Revenue Management, including RIK. We considered these
findings and recommendations and generally agree with the conclusions. The recommendations
in this report complement and expand on those of the RPC.
 
                                   What We Found 
Our evaluation found that MMS has taken some important and necessary steps to enhance the
overall performance and effectiveness of its RIK Program. For example, MMS conducted an
internal review of RIK and management accepted all recommendations. MMS also responded
positively to most recommendations contained in the RPC Report that related to RIK and
developed a draft action plan for implementing the report’s recommendations. We believe that
these initiatives, some of which will take time to fully implement, will eventually result in a
better RIK Program.

Additionally, in response to findings from the OIG investigation of the RIK Program that began
in 2006, MMS promptly responded to make necessary management changes. Specifically,
MMS:

    •   Replaced the former RIK Program Manager to provide better leadership.
    •   Enacted some policies to begin improving the RIK sales process.
    •   Improved documentation and strengthened review, which have addressed concerns
        related to contract modifications.

Although RIK is taking steps toward improvement, our review determined that weaknesses in the
program still exist.

                                                3
Business Practices Do Not Ensure Fairness or Effectiveness
The integrity of the RIK oil sales process is undermined by poor business practices. Without
detailed guidance to govern its operations, the RIK business environment falls short in two
critical areas - fairness and effectiveness.

Procedures for the pre-award, award, and modification processes are not fully documented. This
can lead to inconsistent treatment of companies and potential favoritism, both real and perceived.
The current process appears to have much flexibility, which may result in some gains for the
RIK Program, but at the possible cost of not playing fair with all potential bidders. Further,
ineffective business practices cause lapses in needed controls. For example,

   •   RIK allows companies to revise bids. Explanations for bid revisions were not always
       provided. These revisions were still being submitted to MMS one to two days after the
       bid deadline date and even on the award day. We found it difficult to determine from the
       documentation whether the bid revisions were initiated by MMS or were company-
       identified errors.

   •   Access to electronic bid information is not controlled and therefore, presents a security
       risk. Bids and spreadsheets containing bid information are not password protected and
       are posted on a shared network drive which can be accessed by all RIK employees.

   •   RIK has been inconsistent in awarding bids. That is, factors other than price may
       influence the award, such as increasing the number of program participants in an effort to
       diversify the sales portfolio. For example, in the January 2008 sale two tied bids were
       submitted on one offer package. Instead of asking the companies to increase their bids in
       a procedure known as a “refresh,” RIK awarded the bid to the company that otherwise
       would not have won any packages in that sale. For another package in the same sale,
       however, two close bids were submitted but RIK did conduct a refresh. Such ad hoc
       decisions may lead to the perception of subjectivity and favoritism in awarding contracts.

   •   Awards did not always beat the Minimum Acceptable Bid (MAB) or the Expected
       Transportation Bid (ETB). The justifications for not awarding better than the MAB and
       ETB were not sufficiently documented or were incorrect. For example, the rationale for
       some of those awards stated that the bids beat the MAB/ETB when in fact they did not.

   •   The OIG investigation found that RIK staff had inappropriate relationships with industry
       that could compromise their objectivity. RIK personnel still meet individually with
       industry representatives. Guidance governing these relationships should be clearly set
       forth in written policy.

   •   In the past, initial bids were accepted after the bid deadline date and time. This has since
       been addressed through a new procedure which was followed during the sale we attended
       in January 2008. However, as described above, revised bids are still accepted after the
       bid deadline date and time.


                                                4
Companies Are Not Held Accountable for Failing to Follow Bidding Instructions

Companies did not follow required bidding instructions. The Invitation for Offer (IFO) explains
how companies are to submit bids and the components associated with each bid package. Our
review found that:

   •   Companies did not consistently submit bids to the designated person listed on the IFO. In
       many cases, Front Office staff received the bids simultaneously with the designated bid
       acceptance official. In one instance, the bids were sent to two individuals who were no
       longer assigned to RIK.

   •   Asset Managers act as quality assurance for the companies, allowing companies to revise
       erroneous bids if certain aspects of the bid are missing, such as a transportation cost.
       These revisions are not always in the government’s favor.

   •   Companies sometimes failed to bid to the nearest $.0001 as required by the IFO and RIK
       did not always clarify this requirement with the companies. RIK recently issued
       procedures requiring the Bid Acceptance Official to contact the company if a bid does not
       meet this condition.

   •   In some cases, companies did not submit bids on the required Offer Sheet. RIK was
       inconsistent in requiring companies to resubmit bids correctly.

The instances described above are not isolated, as most, if not all, occur at each sale. There is no
consequence to the company for failure to follow bidding instructions. This could appear to an
outsider that RIK caters to companies and does not manage a fair process.

Minimum Acceptable Bid Errors

We found numerous errors in the calculations of the MAB and the ETB which could affect
decision making when awarding oil packages. The MAB is a value formulated by the Front
Office that is evaluated against bids to ensure that the values received for RIK crude oil awarded
to purchasers are at least as high as those that would have been received under RIV. For the
SPR, an ETB is developed to provide a basis for analyzing transportation bids and assurance that
the transportation charges for RIK crude oil awarded to shippers are reasonable and a good value
for the government.

We reviewed the MAB and ETB for accuracy and security. We identified the following
deficiencies:

   •   Formula errors on the Excel spreadsheets used to calculate the MAB and ETB.
   •   Instances in which the RIK used the wrong tariff rates in the calculations.
   •   Tariffs and other aspects of the MAB and ETB were not fully supported.
   •   The electronic MAB and ETB spreadsheets were not password protected and could be
       viewed and potentially changed by any RIK employee.

                                                 5
Although the errors noted above would not have changed the outcome of the sales, the risk of an
incorrectly awarded bid exists if RIK does not strengthen its quality assurance. Additionally, the
MAB is supposed to be reviewed by several individuals before a sale, including the Front Office
Supervisor, Chief Risk Officer, Deputy Program Director, and the Portfolio Analyst. We found
little evidence in the sales files that this was occurring.

The reliance on manual input increases the risk of error. Software specific to oil marketing
would likely help streamline the process. However, if Excel continues to be used, more
advanced functions would allow the Front Office to better optimize Excel’s capabilities.

Procurement Office Removed from Process

Until December 2007, the oil sales were transacted by a Contracting Officer assigned to RIK but
who reported to MMS’ Western Area Service Center Procurement Branch. The Contracting
Officer received bids; reviewed sales documentation, such as the IFO; and reviewed and signed
transaction confirmations and amendments. In November 2007, the Department’s Office of the
Solicitor (SOL) determined that oil sales did not have to follow Federal Acquisition Regulation
(FAR) requirements. As a result, all sales contract functions are now performed solely within
RIK. The Procurement Office’s involvement in the oil sales process is now limited to an
advisory role, removing the independent oversight that the Procurement Office previously
provided.

Sales Files Not Complete

Sales files did not consistently contain information necessary to support business decisions.
For example, the files did not contain:

   •   Information regarding company eligibility, including credit limits.
   •   Evidence the IFO was reviewed or approved for each sale.
   •   Evidence of peer review (quality check) by Front Office staff.

Without written guidelines to administer the RIK Program operations, the Program subjects itself
to unnecessary scrutiny and potential challenge. Transparency is crucial to promoting the
legitimacy and credibility governing all aspects of the RIK oil sales process and the overall RIK
Program. Clear guidance would help the public and stakeholders better understand RIK
processes, would assist in alleviating the perception that the process could be invalid or unfair
and would improve the effectiveness of the oil sales process.

The RPC Report recommended that MMS:

   •   Issue new or revised regulations and/or guidelines to provide greater transparency for
       MMS business practice. (MMS is in the preliminary planning stages with a target date of
       December 2010).




                                                6
    •    Compile and publish a guidebook of policies and procedures to be made available to the
         public. (MMS stated the corrective action is underway with a target date of November
         2008.)

    •    Implement a systematic and detailed procedure for handling bid documents to ensure
         security and integrity. (This action is underway with a target date of December 2008.)

We envision taking these recommendations a step further with the creation of a detailed
operating manual which should contain all the policies, procedures, and work instructions that
comprise the way RIK carries out all business operations. Ideally an operating manual would
contain all the information required for new and existing employees to access for training and
reference purposes. The MMS’ Outer Continental Shelf (OCS) Leasing Process Handbook
(Leasing Handbook) serves as a good model for the RIK. We envision an even more detailed
manual that guides the oil sales process.

Recommendation
        1.   Develop a comprehensive operations manual to guide the Crude Oil Front Office
             similar to the Leasing Handbook developed by the Offshore Minerals Management
             program. The RIK operations manual should address the selection of properties,
             solicitation, bidding, award, and amendment processes. This manual should also
             address, at a minimum, the issues identified in Appendix D.

Enhance Legal Review and Heed Legal Advice
RIK operates its multi-billion dollar oil sales program with little regard for legal advice. RIK has
not sought legal counsel on critical and fundamental contract documents, and in one case
disregarded legal advice intended to protect the government’s interests. As a result, sales
contracts may not be enforceable and could put the program in peril.

Contract documents consist of the General Terms and Conditions, Invitation for Offer, and the
Transaction Confirmation1. In October 2007, the Procurement Office requested a legal review of
the Oil General Terms and Conditions from the Department’s Office of the Solicitor (SOL).
The document was reviewed to determine if the interests of the government were protected. The
SOL found that since the documents came from industry the contract language was more
favorable to industry than to the government and responded with numerous concerns to the
Procurement Office. The SOL also found that certain paragraphs “provided significant risk to
the United States and are inconsistent with accepted contract law generally.”



1
  General Terms and Conditions – called the “base contract,” this document is signed by the companies prior to pre-
qualification to participate in an oil sale.
Invitation for Offer - contains the details of the solicitation such as contract terms; bid submission deadlines; award
dates; credit and prequalification requirements; transporting and scheduling terms; and the offer sheet.
Transaction Confirmation – the agreement that includes the basic information related to the bid packages awarded,
such as the performance period, volumes, price, and any special terms.


                                                           7
The Procurement Office provided the SOL’s opinions to RIK; however, RIK has taken no action
to address the SOL’s concerns. RIK management has stated that they dispute some of the
concerns in the opinion and are hiring an attorney who will focus on the RIK Program and will
conduct the legal review of contract documents. [Note: In fact, the SOL has established a unit
dedicated to MMS royalty issues.] In the meantime, one SPR delivery sale and one unrestricted
sale have occurred since the opinion was rendered.

Other issues identified during our review that support the immediate need for legal review
include:

    •   Inconsistent language was used for the amendment provision in the IFO. Of the five
        unrestricted sale IFOs reviewed, only two had the same language.

    •   Companies do not always sign the transaction confirmation. Of the 36 transaction
        confirmations we reviewed, 16 (44 percent) were not signed by the company. MMS
        includes a statement on the transaction confirmation that the agreement is binding if not
        signed and returned, or discrepancies noted, within 2 business days from receipt. Since
        this document has not been reviewed by the SOL, it could put the RIK Program at risk for
        unenforceable contracts.

Ultimately, these contracting documents should already have been through a legal review since
RIK began using them about seven years ago. Even though there have been no ramifications
from the absence of a legal review of the contract documents, the oil lease issues from 1998 and
1999 illustrate why adequate legal review of documents is critical. [Note: In 1998 and 1999,
MMS’ review process of oil leases which included the Office of the Solicitor failed to identify
that critical price threshold language was missing from Gulf of Mexico oil and gas leases. The
threshold provision would require oil and gas companies to pay royalties when oil and gas
prices reached a certain level (1,032 leases issued without price thresholds and 570 remain
active). Since leases were missing this critical provision, the MMS may lose billions of dollars
in royalty revenue.2] Poorly written legal documents subject the government’s interests to great
risks.

RIK Operating Without Contracting Governance

The SOL has determined that the FAR does not apply to the sales of royalty oil. As a result, RIK
has no framework of contracting law or regulations to guide the process. Without a framework,
the oil sales contracting process cannot be administered consistently and does not have the
structure necessary to manage a multi-billion dollar program.




2
 In 2007, the OIG issued “Investigative Report on the Lack of Price Thresholds in Gulf of Mexico Oil and Gas
Leases” which focused on how MMS omitted the price thresholds from oil and gas leases. In the same year, the
GAO issued a report (GAO-07-590R) addressing the fiscal impacts of not including the lease thresholds.
                                                       8
Recommendations
      2.   Obtain legal review of all existing contract documents and implement changes as
           appropriate.

      3.   In consultation with the SOL and the Procurement Office, develop guidelines for oil
           sales contracting and implement guiding principles and processes. Specifically, RIK
           should either identify whether there is existing guidance, or in the absence of existing
           guidance, identify aspects of the FAR or any other contract-related regulations that
           could be adapted to the process to provide greater control.

Staffing and Business Continuity Concerns

Poor personnel planning has created a weak foundation for the RIK Program, putting the entire
oil sales process at risk. Sudden or unanticipated absences of Asset Managers would likely
disrupt business operations.

In the last 18 months, the Oil Front Office has been operating without sufficient staff. In 2006,
two Asset Managers and the Front Office Supervisor were detailed out of the RIK Program
pending the results of the aforementioned OIG investigation. The loss of several knowledgeable
staff required less experienced staff to take on additional workloads. This short staffing may
have contributed to the errors and inconsistencies that we found in sales documents as well as a
lack of internal peer reviews. Further, the RIK Program was not always marketed to all potential
participants, which may have reduced the number of bidders and thereby decreased the oil sale
revenues.

With the addition of an Asset Manager in March 2008 for a total of four, the current staffing
level is the minimum number necessary to accomplish the workload. The Front Office
supervisor position is currently vacant, requiring the Deputy RIK Program Manager to fulfill the
responsibilities. The primary duties of the Front Office staff include identifying and converting
properties from RIV to RIK, marketing and transacting oil sales, and scheduling flow of the oil.
In industry, the marketing and scheduling functions are separate duties – the RIK Asset
Managers are performing double duty.

Further, Asset Managers must stay knowledgeable about the market and maintain their expertise.
RIK has not developed training plans for its Asset Managers which would be beneficial in
ensuring the staff stays at the highest competency possible.

Business Continuity Is At Risk in the Sudden Absence of Staff

Asset Managers specialize in oil types extracted from certain properties and become “experts” in
those specific properties. There is no knowledgeable backup capacity. As a result, the loss of
one experienced Asset Manager could significantly disrupt program operations. In addition, the
potential for fraud, collusion, and compromised independence is raised because of the lack of
cross-training and rotation of staff.



                                                9
Staffing levels should enable staff to conduct peer reviews and receive cross-training in order to
develop knowledgeable backup capacity. Rotating properties among Asset Managers
periodically would also enhance independence and objectivity.

In response to the RPC Report, RIK is developing a personnel plan due to be completed by July
2008. However, the personnel plan recommended by RPC only covers flexibility in hiring,
compensation comparisons, and specialized ethics training. Our findings indicate that MMS
should expand this plan to include other key areas.

Recommendation
      4.   In a comprehensive staffing plan, RIK should address staffing needs, position
           qualifications, and training. This plan should also include rotation of responsibility
           for properties on a periodic basis to foster objectivity and independence, and cross-
           training of staff to ensure business continuity in the Oil Front Office.


Alternative Sales Options
Other Sales Methods

The RPC Report recommended that MMS compare the RIK Program to other public and private
sector efforts towards marketing in-kind royalties and publish a program cost comparison. RPC
also recommended that MMS evaluate the benefits and costs of alternative auction types and
develop a pilot program to test alternatives. MMS’ action plan has the program cost comparison
to be completed by September 2009 and the evaluation of alternative auction types is underway
to be completed by April 2010.

Consistent with the RPC Report, we evaluated several alternative commodity sales methods used
by international, federal, and state entities. Of those we evaluated, the Federal Communications
Commission’s (FCC) auction process presents the best alternative for RIK oil sales. The FCC
utilizes a simultaneous multiple round auction process to sell licenses for the electromagnetic
spectrum. All auctions publish the minimum acceptable bid to participants and all bidding is
conducted online using a secured website.

FCC has found many benefits from using the auction process to sell its licenses. Since 1994, the
FCC has found auctions to be fair, objective, open and transparent. Auctions have also increased
the revenue received from the licenses sales. Overall the auction process has proven to be the
most economically efficient method used to sell licenses and has provided the best overall
process. While MMS has evaluated the FCC process and identified some good business
practices, it has not adopted or tested the auction process in the RIK oil sales process.

As an alternative to the FCC auction process, an outside marketing agent, similar to the one used
by the Alberta, Canada RIK program, might provide the market expertise and potentially reduce
administrative costs to RIK.




                                                10
Using Longer Term Contracts

Longer term sales contracts could also reduce the administrative costs of operating the RIK sales
program. For most sales, RIK uses short term contracts of about six months. RIK does award
one-year contracts for its Pacific properties and obtains better bids compared to the six-month
term. Another entity we evaluated, the State of Alaska, uses a five year renewable contract.
This simple change may alleviate the heavy workloads for the Front Office Staff, reduce overall
program administration costs, and would likely increase revenues.

Recommendations
      5.   RIK should implement a pilot project to evaluate the viability of other sales methods,
           such as the FCC's simultaneous multiple-round auction or an outside marketing agent.

      6.   To reduce the workload and administrative costs, RIK should use longer term oil
           sales contracts.



 




                                               11
                                                                                     Appendix A



             Summary of Recommendations 
                                                                                        PAGE
NUMBER                            RECOMMENDATION
                                                                                       NUMBER

         Develop a comprehensive operations manual to guide the Crude Oil
         Front Office similar to the Leasing Handbook developed by the
         Offshore Minerals Management program. The RIK operations manual
    1    should address the selection of properties, solicitation, bidding, award,        7
         and amendment processes. This manual should also address, at a
         minimum, the issues identified in Appendix D.


         Obtain legal review of all existing contract documents and implement
    2                                                                                     9
         changes as appropriate.


         In consultation with the SOL and the Procurement Office, develop
         guidelines for oil sales contracting and implement guiding principles
         and processes. Specifically, RIK should either identify whether there is
    3                                                                                     9
         existing guidance, or in the absence of existing guidance, identify
         aspects of the FAR or any other contract-related regulations that could
         be adapted to the process to provide greater control.


         In a comprehensive staffing plan, RIK should address staffing needs,
         position qualifications, and training. This plan should also include
    4    rotation of responsibility for properties on a periodic basis to foster         10
         objectivity and independence, and cross-training of staff to ensure
         business continuity in the Oil Front Office.


         RIK should implement a pilot project to evaluate the viability of other
    5    sales methods, such as the FCC's simultaneous multiple-round auction            11
         or an outside marketing agent.

         To reduce the workload and administrative costs, RIK should use
    6                                                                                    11
         longer term oil sales contracts.


 
 
 
 
                                            12
                                                                                      Appendix B



                                    Methodology 
We evaluated controls over the solicitation, award, and modification of oil sales contracts
managed by the RIK Program. We focused our efforts on fiscal years 2007 and 2008 oil sales
and the current control environment. In the two fiscal years reviewed there were two SPR
delivery sales and five unrestricted oil sales. The Small Refiner Program was excluded from our
review. We performed this evaluation from November 2007 through March 2008.

                                                                          Volume
                                              SPR or                     Awarded
                    IFO Number              Unrestricted   Sales Date    (barrels)
                 1435-02-07-RP-27856        Unrestricted   11/2/2006         53,615
                    M07PX14931              Unrestricted    2/8/2007         41,750
                    M07PX14955              Unrestricted    5/3/2007         13,800
                    M07PX14988              Unrestricted    8/2/2007          8,510
               MMS-RIKOIL-2008-UNR-001      Unrestricted   1/30/2008         29,050
                                                                 Total      146,725
                      M07PX14954                SPR         5/3/2007         45,430
                      M08PX15014                SPR        11/1/2007         66,730
                                                                 Total      112,160
                      Grand Total                                           258,885



We performed the following steps during the evaluation:

   ¾ Gained an understanding of the RIK oil sales process by obtaining applicable policies,
     procedures, and other pertinent documentation related to the RIK Program.

   ¾ Reviewed oil sale records and other RIK Program data. We selected an unrestricted sale
     and an SPR sale to test the controls.

   ¾ Interviewed various MMS employees, including RIK Program managers and staff, the
     Procurement Office Manager and Contracting Officer, and the Chief Risk Officer.

   ¾ Interviewed officials representing the DOI Office of the Solicitor and reviewed legal
     opinions related to the RIK Program.

   ¾ Interviewed representatives from KPMG and GAO to coordinate our efforts and discuss
     status of ongoing reviews.

   ¾ Attended the January 2008 RIK Program’s unrestricted crude oil sale at the MMS offices
     located in Lakewood, Colorado.




                                              13
                                                                                       Appendix B


   ¾ Reviewed the MAB and ETB for accuracy, including accurate formula computations;
     accurate tariff, surcharge, buy/sell, and line loss rates. We also looked at the tariff rates
     to ensure that valid rates were being used (i.e. active rates versus expired rates).

   ¾ Evaluated the following federal agencies, state governments, the Canadian government,
     and other entities to identify potential best sales practices:

          •   MMS Offshore Minerals Management Program (lease sales). We attended the
              March 2008 Outer Continental Shelf oil and gas lease sale held in New Orleans,
              Louisiana.
          •   Bureau of Land Management (helium sales)
          •   Federal Communications Commission (sale of electromagnetic spectrum rights)
          •   U.S. Forest Service (timber sales)
          •   Bonneville Power Administration; Western Area Power Administration (electric
              power sales)
          •   Alberta, Canada; States of Alaska and Texas; University of Texas (oil and gas
              RIK programs)

The Office of Inspector General has not previously examined the RIK Program’s oil sales
process.

The evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                                14
                                                                     Appendix C



              Oil Sales Process Flowchart 
 
 
     2 Weeks Prior to Sale
                                IFO Finalized, Sent Via Email to
                                   Potential Purchasers, and
                                  Published on MMS Website



                                 MAB/ETB Developed by Front
                                       Office Staff



                                Bids Submitted Via Email and/or
    1 to 2 Days Prior to Sale      Fax to the Bid Acceptance
                                            Official



                                Bid Acceptance Official Releases
                                 Bids to Front Office for Review
                                and Input into Bid Analysis Sheet




                                      Sale is Conducted and Bid
           Sales Day                     Packages Awarded




                                   Transaction Confirmations
    2 Days After Sales Day       Created and Sent to Purchasers




                                     Dear Operator Letters Sent to
    2 Weeks After Sales Day          Notify Operators of RIK Oil
                                             Deliveries



    60 Days After Sales Day              Oil Deliveries Begin




                                15
                                                                                       Appendix D



        Areas to be Addressed by Operations Manual 
The following table provides areas identified during the evaluation that should be included in an
operations manual. This list is not all-inclusive, but provided in this report as a tool to assist
MMS in developing more specific guidelines.

        AREA                                             PROCESS
Property Selection            •   Method applied to identify potential properties to convert to
                                  RIK.
Solicitation                  •   Development of the Invitation for Offer (IFO).

Bids                          •   Circumstances in which companies are allowed to revise bids
                                  and required supporting documentation.
Minimum Acceptable            •   Minimum Acceptable Bid methodology.
Bid                                  o Description of the components of the MAB.
                                     o Method to obtain component information.
                                     o Quality assurance procedures.

Award                         •   Justifications for awarding the oil packages and ensure proper
                                  support for the decision is documented.
                              •   Criteria for awarding properties if not based on best bid or in
                                  the case of a virtual tie.
                              •   Guidelines for refreshing bids, including deadlines to submit
                                  refreshes and circumstances to not continue with a bid refresh.
Amendments                    •   Transportation charges that are and are not acceptable for an
                                  amendment.
                              •   Required supporting documentation for amendments.
                              •   Procedures for non-amendment changes and appropriate
                                  support.

Security                      •   Process to ensure access to all sales folders is controlled and
                                  proper justification is required to allow access.

Personnel                     •   Roles and responsibilities of all individuals involved in the
                                  process.
                              •   Guidance on RIK staff meeting individually with company
                                  representatives.
                              •   Identify required peer reviews and what the peer reviews
                                  specifically entail.
Other                         •   Quality assurance checklist for each sale.
                              •   Required documentation to be maintained in sales folders to
                                  support business decisions for each oil sale.

                                                16
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
